                            Federal Register / Vol. 67, No. 169 / Friday, August 30, 2002 / Notices                                      55855

DATES: Submit written comments on the               collection of information to OMB for              not collected, a vital link in information
collection of information by September              review and clearance.                             gathering by FDA to develop policy and
30, 2002.                                                                                             programmatic proposals will be missed
                                                    Focus Groups as Used by the Food and
                                                                                                      causing further delays in policy and
ADDRESSES:   Submit written comments                Drug Administration—New Collection
                                                                                                      program development.
on the collection of information to the               FDA will collect and use information              In the Federal Register of May 24,
Office of Information and Regulatory                gathered through the focus group                  2002 (67 FR 36613), the agency
Affairs, OMB, New Executive Office                  vehicle. This information will be used            requested comments on the proposed
Bldg., 725 17th St. NW., rm. 10235,                 to develop programmatic proposals, and            collection of information. FDA received
Washington, DC 20503, Attn: Stuart                  as such, compliments other important              four comments, but they did not pertain
Shapiro, Desk Officer for FDA.                      research findings to develop these                to the information collection though one
FOR FURTHER INFORMATION CONTACT:                    proposals. Focus groups do provide an             heartily supported the use of focus
Mark L. Pincus, Office of Information               important role in gathering information           groups as an instrument to help FDA
Resources Management (HFA–250),                     because they allow for a more in-depth            better understand how well respondents
Food and Drug Administration, 5600                  understanding of consumers’ attitudes,            comprehend health issues.
Fishers Lane, Rockville, MD 20857,                  beliefs, motivations, and feelings than             FDA estimates the burden for
                                                    do quantitative studies.                          completing the forms for this collection
301–827–1471.
                                                      Also, information from these focus              of information as follows:
SUPPLEMENTARY INFORMATION:   In                     groups will be used to develop policy               The total annual estimated burden
compliance with 44 U.S.C. 3507, FDA                 and redirect resources, when necessary,           imposed by this collection of
has submitted the following proposed                to our constituents. If this information is       information is 2,884 hours annually.

                                           TABLE 1.—ESTIMATED ANNUAL REPORTING BURDEN1
                                                                                                                    Hours of
                                                                              No. of Focus
                                                           No. of Focus                         Number of         Duration for
                                                                             Group Sessions
        Center                      Subject                Groups per                         Participants per    Each Group        Total Hours
                                                                               Conducted
                                                              Study                                Group            (includes
                                                                                Annually                           screening)

Center for Biologics      May use focus groups                      1                 5                  9                1.58            71
  Evaluation and Re-       when appropriate.
  search.

Center for Drug Eval­     Varies (e.g., direct-to-con­             10               100                  9                1.58         1,422
  uation and Re-            sumer Rx drug pro-
  search.                   motion, physician label­
                            ing of Rx drugs, medica­
                            tion guides, over-the-
                            counter drug labeling,
                            risk communication).

Center for Devices        Varies (e.g., FDA Seal of                 5                25                  9                2.08           468
  and Radiological          Approval, patient label­
  Health.                   ing, tampons, on-line
                            sales of medical prod­
                            ucts, latex gloves).

Center for Food Safe­     Varies (e.g., food safety,                8                32                  9                1.58           455
  ty and Applied Nu­        nutrition, dietary supple­
  trition.                  ments, and consumer
                            education).

Center for Veterinary     Varies (e.g., food safety,                5                25                  9                2.08           468
  Medicine.                 labeling, cosmetic safety
                            and labeling).

Total                                                              29               187                                   1.99         3,352
  1There   are no capital costs or operating and maintenance costs associated with this collection.


  Annually, FDA projects about 29                     Dated: August 26, 2002.                         DEPARTMENT OF HEALTH AND
focus group studies using 187 focus                 Margaret M. Dotzel,                               HUMAN SERVICES
groups lasting an average of 1.99 hours             Associate Commissioner for Policy.
each. We have allowed burden for                    [FR Doc. 02–22284 Filed 8–29–02; 8:45 am]         Office of Inspector General
unplanned focus groups to be                        BILLING CODE 4160–01–S
completed so as not to restrict the                                                                   Publication of OIG Special Advisory
agency’s ability to gather information on                                                             Bulletin on Offering Gifts and Other
public sentiment for its proposals in its                                                             Inducements to Beneficiaries
regulatory as well as other programs.
                                                                                                      AGENCY: Office of Inspector General
                                                                                                      (OIG), HHS.
55856                          Federal Register / Vol. 67, No. 169 / Friday, August 30, 2002 / Notices

ACTION:   Notice.                                        and cost concerns. Providers may have        conduct that is very close to an existing
                                                         an economic incentive to offset the          statutory or regulatory exception.
SUMMARY: The OIG periodically                            additional costs attributable to the            In sum, unless a provider’s practices
develops and issues guidance, including                  giveaway by providing unnecessary            fit within an exception (as implemented
Special Fraud Alerts and Special                         services or by substituting cheaper or       by regulations) or are the subject of a
Advisory Bulletins, to alert and inform                  lower quality services. The use of           favorable advisory opinion covering a
the industry about potential problems or                 giveaways to attract business also favors    provider’s own activity, any gifts or free
areas of special interest. This Federal                  large providers with greater financial       services to beneficiaries should not
Register notice sets forth the recently                  resources for such activities,               exceed the $10 per item and $50 annual
issued OIG Special Advisory Bulletin                     disadvantaging smaller providers and         limits.2
addressing the offering of gifts and other               businesses.                                     In addition, valuable services or other
inducements to Medicare and Medicaid                        The Office of Inspector General (OIG)     remuneration can be furnished to
beneficiaries.                                           is responsible for enforcing section         financially needy beneficiaries by an
FOR FURTHER INFORMATION CONTACT:                         1128A(a)(5) through administrative           independent entity, such as a patient
Vicki Robinson or Joel Schaer, Office of                 remedies. Given the broad language of        advocacy group, even if the benefits are
Counsel to the Inspector General, (202)                  the prohibition and the number of            funded by providers, so long as the
619–0335.                                                marketing practices potentially affected,    independent entity makes an
SUPPLEMENTARY INFORMATION:                               this Bulletin is intended to alert the       independent determination of need and
                                                         health care industry as to the scope of      the beneficiary’s receipt of the
I. Background
                                                         acceptable practices. To that end, this      remuneration does not depend, directly
   We are issuing this Special Advisory                  Bulletin provides bright-line guidance       or indirectly, on the beneficiary’s use of
Bulletin to help the industry better                     that will protect the Medicare and           any particular provider. An example of
understand the prohibition on                            Medicaid programs, encourage                 such an arrangement is the American
furnishing inducements to Medicare                       compliance, and level the playing field      Kidney Fund’s program to assist needy
and Medicaid beneficiaries at section                    among providers. In particular, the OIG      patients with end stage renal disease
1128A(a)(5) of the Social Security Act.                  will apply the prohibition according to      with funds donated by dialysis
Specifically, the Special Advisory                       the following principles:                    providers, including paying for their
Bulletin addresses the offering of gifts                    • First, the OIG has interpreted the      supplemental medical insurance
and other inducements to beneficiaries                   prohibition to permit Medicare or            premiums. (See, e.g., OIG Advisory
to influence their choice of a Medicare                  Medicaid providers to offer beneficiaries    Opinion No. 97–1 and No. 02–1.)
or Medicaid provider, practitioner, or                   inexpensive gifts (other than cash or
supplier.                                                                                             Elements of the Prohibition
                                                         cash equivalents) or services without
                                                         violating the statute. For enforcement          Remuneration. Section 1128A(a)(5) of
II. Special Advisory Bulletin: Offering
                                                         purposes, inexpensive gifts or services      the Act prohibits the offering or transfer
Gifts and Other Inducements to
                                                         are those that have a retail value of no     of ‘‘remuneration’’. The term
Beneficiaries (August 2002)
                                                         more than $10 individually, and no           ‘‘remuneration’’ has a well-established
Introduction                                             more than $50 in the aggregate annually      meaning in the context of various health
  Under section 1128A(a)(5) of the                       per patient.                                 care fraud and abuse statutes. Generally,
Social Security Act (the Act), enacted as                   • Second, providers may offer             it has been interpreted broadly to
part of Health Insurance Portability and                 beneficiaries more expensive items or        include ‘‘anything of value.’’ The
Accountability Act of 1996 (HIPAA), a                    services that fit within one of the five     definition of ‘‘remuneration’’ for
person who offers or transfers to a                      statutory exceptions: waivers of cost-       purposes of section 1128A(a)(5)—which
Medicare or Medicaid beneficiary any                     sharing amounts based on financial           includes waivers of coinsurance and
remuneration that the person knows or                    need; properly disclosed copayment           deductible amounts, and transfers of
should know is likely to influence the                   differentials in health plans; incentives    items or services for free or for other
beneficiary’s selection of a particular                  to promote the delivery of certain           than fair market value—affirms this
provider, practitioner, or supplier of                   preventive care services; any practice       broad reading. (See section 1128A(i)(6).)
Medicare or Medicaid payable items or                    permitted under the federal anti-            The use of the term ‘‘remuneration’’
services may be liable for civil money                   kickback statute pursuant to 42 CFR          implicitly recognizes that virtually any
penalties (CMPs) of up to $10,000 for                    1001.952; or waivers of hospital             good or service has a monetary value.3
each wrongful act. For purposes of                       outpatient copayments in excess of the          The definition of ‘‘remuneration’’ in
section 1128A(a)(5) of the Act, the                      minimum copayment amounts.                   section 1128A(i)(6) contains five
statute defines ‘‘remuneration’’ to                         • Third, the OIG is considering           specific exceptions:
                                                         several additional regulatory exceptions.       • Non-routine, unadvertised waivers
include, without limitation, waivers of
                                                         The OIG may solicit public comments          of copayments or deductible amounts
copayments and deductible amounts (or
                                                         on additional exceptions for                 based on individualized determinations
any part thereof) and transfers of items
                                                         complimentary local transportation and       of financial need or exhaustion of
or services for free or for other than fair
                                                         for free goods in connection with            reasonable collection efforts. Paying the
market value. (See section 1128A(i)(6) of
                                                         participation in certain clinical studies.   premiums for a beneficiary’s Medicare
the Act.) The statute and implementing
                                                            • Fourth, the OIG will continue to        Part B or supplemental insurance is not
regulations contain a limited number of
                                                         entertain requests for advisory opinions     protected by this exception.
exceptions. (See section 1128A(i)(6) of                                                                  • Properly disclosed differentials in a
                                                         related to the prohibition on
the Act; 42 CFR 1003.101.)                                                                            health insurance plan’s copayments or
  Offering valuable gifts to beneficiaries               inducements to beneficiaries. However,
to influence their choice of a Medicare                  as discussed below, given the difficulty
or Medicaid provider 1 raises quality                    in drawing principled distinctions             2 The OIG will review these limits periodically

                                                         between categories of beneficiaries or       and may adjust them for inflation if appropriate.
                                                                                                        3 Some services, such as companionship provided
  1 For convenience, in this Special Advisory            types of inducements, favorable              by volunteers, have psychological, rather than
Bulletin, the term ‘‘provider’’ includes practitioners   opinions have been, and are expected to      monetary value. (See, e.g., OIG Advisory Opinion
and suppliers, as defined in 42 CFR 400.202.             be, limited to situations involving          No. 00–3.)
                             Federal Register / Vol. 67, No. 169 / Friday, August 30, 2002 / Notices                                  55857

deductibles. This exception covers                    disregard. No proof of specific intent is     incentives to select particular providers,
incentives that are part of a health plan             required. (See 42 CFR 1003.101.)              practitioners, or suppliers. As noted in
design, such as lower plan copayments                    The ‘‘inducement’’ element of the          the regulations, the OIG has interpreted
for using preferred providers, mail order             offense is met by any offer of valuable       this element to exclude health plans
pharmacies, or generic drugs. Waivers of              (i.e., not inexpensive) goods and             that offer incentives to Medicare and
Medicare or Medicaid copayments are                   services as part of a marketing or            Medicaid beneficiaries to enroll in a
not protected by this exception.                      promotional activity, regardless of           plan. (See 65 FR 24400 and 24407.)
   • Incentives to promote the delivery               whether the marketing or promotional          However, incentives provided to
of preventive care. Preventive care is                activity is active or passive. For            influence an already enrolled
defined in 42 CFR 1003.101 to mean                    example, even if a provider does not          beneficiary to select a particular
items and services that (i) are covered               directly advertise or promote the             provider, practitioner, or supplier
by Medicare or Medicaid and (ii) are                  availability of a benefit to beneficiaries,   within the plan are subject to the
either pre-natal or post-natal well-baby              there may be indirect marketing or            statutory proscription (other than
services or are services described in the             promotional efforts or informal channels      copayment differentials that are part of
Guide to Clinical Preventive Services                 of information dissemination, such as         a health plan design). Id. In addition,
published by the U.S. Preventive                      ‘‘word of mouth’’ promotion by                the OIG does not believe that drug
Services Task Force (available online at              practitioners or patient support groups.      manufacturers are ‘‘providers,
http://odphp.osphs.dhhs.gov/pubs/                     In addition, the OIG considers the            practitioners, or suppliers’’ for the
guidecps). Such incentives may not be                 provision of free goods or services to        limited purposes of section 1128A(a)(5),
in the form of cash or cash equivalents               existing customers who have an ongoing        unless the drug manufacturers also own
and may not be disproportionate to the                relationship with a provider likely to        or operate, directly or indirectly,
value of the preventive care provided.                influence those customers’ future             pharmacies, pharmacy benefits
(See 42 CFR 1003.101; 65 FR 24400 and                 purchases.                                    management companies, or other
24409.)                                                  Beneficiaries. Section 1128A(a)(5) of      entities that file claims for payment
   • Any practice permitted under an                  the Act bars inducements offered to           under the Medicare or Medicaid
anti-kickback statute safe harbor at 42               Medicare and Medicaid beneficiaries,          programs.
CFR 1001.952.4                                        regardless of the beneficiary’s medical
   • Waivers of copayment amounts in                  condition. The OIG is aware that some         Additional Regulatory Considerations
excess of the minimum copayment                       specialty providers offer valuable gifts         Congress has authorized the OIG to
amounts under the Medicare hospital                   to beneficiaries with specific chronic        create regulatory exceptions to section
outpatient fee schedule. (See section                 conditions. In many cases, these              1128A(a)(5) of the Act and to issue
1128A(i)(6) of the Act; 42 CFR                        complimentary goods or services have          advisory opinions to protect acceptable
1003.101.)                                            therapeutic, as well as financial,            arrangements. (See sections
   In addition, in the Conference                     benefits for patients. While the OIG is       1128A(i)(6)(B) and 1128D(b)(2)(A) of the
Committee report accompanying the                     mindful of the hardships that chronic         Act.) While the OIG has considered
enactment of section 1128A(a)(5),                     medical conditions can cause for              numerous arrangements involving the
Congress expressed its intent that                    beneficiaries, there is no meaningful         provision of various free goods and
inexpensive gifts of nominal value be                 basis under the statute for exempting         services to beneficiaries, for the
permitted. (See Joint Explanatory                     valuable gifts based on a beneficiary’s       following reasons the OIG has
Statement of the Committee of                         medical condition or the condition’s          concluded that any additional
Conference, section 231 of HIPAA,                     severity. Moreover, providers have a          exceptions will likely be few in number
Public Law 104–191.) Accordingly, the                 greater incentive to offer gifts to           and narrow in scope:
OIG interprets the prohibition to                     chronically ill beneficiaries who are            • Any exception will create the
exclude offers of inexpensive items or                likely to generate substantially more         activity that the statute prohibits—
services, and no specific exception for               business than other beneficiaries.            namely, competing for business by
such items or services is required. (See                 Similarly, there is no meaningful          giving remuneration to Medicare and
65 FR 24400 and 24410.) The OIG has                   statutory basis for a broad exemption         Medicaid beneficiaries. Moreover,
interpreted inexpensive to mean a retail              based on the financial need of a category     competition will not only result in
value of no more than $10 per item or                 of patients. The statute specifically         providers matching a competitor’s offer,
$50 in the aggregate per patient on an                applies the prohibition to the Medicaid       but inevitably will trigger ever more
annual basis. Id. at 24411.                           program—a program that is available           valuable offers.
   Inducement. Section 1128A(a)(5) of                 only to financially needy persons. The           • Since virtually all free goods and
the Act bars the offering of                          inclusion of Medicaid within the              services have a corresponding monetary
remuneration to Medicare or Medicaid                  prohibition demonstrates Congress’            value, there is no principled basis under
beneficiaries where the person offering               conclusion that categorical financial         the statute for distinguishing between
the remuneration knows or should                      need is not a sufficient basis for            the kinds of goods or services offered or
know that the remuneration is likely to               permitting valuable gifts. This               the types of beneficiaries to whom the
influence the beneficiary to order or                 conclusion is supported by the statute’s      goods or services are offered.
receive items or services from a                      specific exception for non-routine            Attempting to draw such distinctions
particular provider. The ‘‘should know’’              waivers of copayments and deductibles         would necessarily result in arbitrary
standard is met if a provider acts with               based on individual financial need. If        standards and would undermine the
deliberate ignorance or reckless                      Congress intended a broad exception for       entire prohibition. Congress has
                                                      financially needy persons, it is unlikely     provided no further statutory guidance
  4 For example, anti-kickback statute safe harbors   that it would have expressly included         on the bases for distinguishing and
exist for warranties; discounts; employee             the Medicaid program within the               evaluating potential exceptions.
compensation; waivers of certain beneficiary          prohibition and then created such a              Despite these serious concerns, the
coinsurance and deductible amounts; and increased
coverage, reduced cost-sharing amounts, or reduced    narrow exception.                             OIG is considering soliciting public
premium amounts offered by health plans. See 42          Provider, Practitioner, or Supplier.       comment on the possibility of regulatory
CFR 1001.952(g), (h), (i), and (k).                   Section 1128A(a)(5) of the Act applies to     ‘‘safe harbor’’ exceptions under section
55858                   Federal Register / Vol. 67, No. 169 / Friday, August 30, 2002 / Notices

1128A(a)(5) for two kinds of                 through the advisory opinion process,            DATES:   Comments Due Date: October 29,
arrangements:                                including the American Kidney Fund’s             2002.
   • Complimentary local                     program to assist needy patients with            ADDRESSES: Interested persons are
transportation. The OIG is considering       end stage renal disease with funds               invited to submit comments regarding
proposing a new exception for                donated by dialysis providers. (See, e.g.,       this proposal. Comments should refer to
complimentary local transportation           OIG Advisory Opinion No. 97–1 and                the proposal by name and/or OMB
offered to beneficiaries residing in the     No. 02–1.)                                       Control number and should be sent to:
provider’s primary catchment area. The                                                        Mildred M. Hamman, Reports Liaison
proposal would permit some                   Conclusion
                                                                                              Officer, Public and Indian Housing,
complimentary local transportation of          Congress has broadly prohibited                Department of Housing and Urban
greater than nominal value. However,         offering remuneration to Medicare and            Development, 451 7th Street, SW.,
the exception would not cover luxury or      Medicaid beneficiaries, subject to               Room 4249, Washington, DC 20410–
specialized transportation, including        limited, well-defined exceptions. To the         5000.
limousines or ambulances (but would          extent that providers have programs in
permit vans specially outfitted to                                                            FOR FURTHER INFORMATION CONTACT:
                                             place that do not meet any exception,
transport wheelchairs). The proposed                                                          Mildred M. Hamman, (202) 708–3642,
                                             the OIG, in exercising its enforcement
exception may include transportation to                                                       extension 4128. (This is not a toll-free
                                             discretion, will take into consideration
the office or facility of a provider other                                                    number).
                                             whether the providers terminate
than the donor; however, such                prohibited programs expeditiously                SUPPLEMENTARY INFORMATION: The
arrangements may implicate the anti-         following publication of this Bulletin.          Department will submit the proposed
kickback statute insofar as they confer a                                                     information collection to OMB for
                                               The Office of Inspector General (OIG) was      review, as required by the Paperwork
benefit on a provider that is a potential    established at the Department of Health and
referral source for the party providing      Human Services by Congress in 1976 to
                                                                                              Reduction Act of 1995 (44 U.S.C.
the transportation.                          identify and eliminate fraud, abuse, and         Chapter 35, as amended).
   • Government-sponsored clinical           waste in the Department’s programs and to           This Notice is soliciting comments
trials. The OIG may propose a new            promote efficiency and economy in                from members of the public and affected
exception for free goods and services        departmental operations. The OIG carries out     agencies concerning the proposed
(possibly including waivers of               this mission through a nationwide program        collection of information to: (1) Evaluate
copayments) in connection with certain       of audits, investigations, and inspections.      whether the proposed collection of
clinical trials that are principally           The Fraud and Abuse Control Program,           information is necessary for the proper
sponsored by the National Institutes of      established by the Health Insurance              performance of the functions of the
                                             Portability and Accountability Act of 1996       agency, including whether the
Health or another component of the           (HIPAA), authorized the OIG to provide
Department of Health and Human               guidance to the health care industry to
                                                                                              information will have practical utility;
Services.                                    prevent fraud and abuse and to promote the       (2) evaluate the accuracy of the agency’s
   The OIG is reviewing its pending          highest level of ethical and lawful conduct.     estimate of the burden of the proposed
proposal (65 FR 25460) to permit certain     To further these goals, the OIG issues Special   collection of information; (3) enhance
dialysis providers to purchase Medicare      Advisory Bulletins about industry practices      the quality, utility, and clarity of the
supplemental insurance for financially       or arrangements that potentially implicate       information to be collected; and (4)
needy persons in the light of the            the fraud and abuse authorities subject to       minimize the burden of the collection of
principles established in this Bulletin.     enforcement by the OIG.                          information on those who are to
   While the OIG does not expect at this       Dated: August 8, 2002.                         respond, including through the use of
time to propose any additional               Janet Rehnquist,                                 appropriate automated collection
regulatory exceptions related to             Inspector General.
                              techniques or other forms of information
unadvertised waivers of copayments                                                            technology; e.g., permitting electronic
                                             [FR Doc. 02–22124 Filed 8–29–02; 8:45 am] 

and deductibles, the OIG recognizes that                                                      submission of responses.
                                             BILLING CODE 4152–01–P
such waivers occur in a wide variety of                                                          This Notice also lists the following
circumstances, some of which do not                                                           information:
present a significant risk of fraud and                                                          Title of Proposal: Lease
abuse. The OIG encourages the industry       DEPARTMENT OF HOUSING AND                        Requirements—24 CFR 966.4,
to bring these situations to our attention   URBAN DEVELOPMENT                                Recordkeeping.
through the advisory opinion process.                                                            OMB Control Number: 2577–0006.
                                             [Docket No. FR 4736–N–12]                           Description of the need for the
Instructions for requesting an OIG
advisory opinion are available on the                                                         information and proposed use: HUD
                                             Notice of Proposed Information
OIG Web site at http://oig.hhs.gov/                                                           regulations 24 CFR 966.4 prescribe the
                                             Collection for Public Comment—Lease
advopn/index.htm.                                                                             provisions that shall be incorporated in
                                             Requirements, Recordkeeping
   Finally, the OIG reiterates that                                                           leases by public housing agencies
nothing in section 1128A(a)(5) prevents      AGENCY: Office of the Assistant                  (PHAs) for dwelling units assisted under
an independent entity, such as a patient     Secretary for Public and Indian                  the U.S. Housing Act of 1937 in projects
advocacy group, from providing free or       Housing, HUD.                                    owned by or leased to PHAs to the
other valuable services or remuneration      ACTION: Notice.                                  tenants. This recordkeeping requirement
to financially needy beneficiaries, even                                                      imposed upon PHAs by HUD
if the benefits are funded by providers,     SUMMARY: The proposed information                regulations and associated information
so long as the independent entity makes      collection requirement described below           incidental to PHAs’ day-to-day
an independent determination of need         will be submitted to the Office of               operations as landlords of rental
and the beneficiary’s receipt of the         Management and Budget (OMB) for                  housing. If these minimal requirements
remuneration does not depend, directly       review, as required by the Paperwork             were not imposed, the Federal
or indirectly, on the beneficiary’s use of   Reduction Act. The Department is                 Government would have no assurance
any particular provider. The OIG has         soliciting public comments on the                that PHAs were adopting leases
approved several such arrangements           subject proposal.                                consistent with the law and regulations
